No. 20-601
In the

Supreme Court of the United States
__________________

DANIEL CAMERON, ATTORNEY GENERAL, ON BEHALF OF
THE COMMONWEALTH OF KENTUCKY,
Petitioner,
v.
EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND ITS PATIENTS, ET AL.
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
REPLY IN SUPPORT OF CERTIORARI
__________________
OFFICE OF THE
KENTUCKY ATTORNEY
GENERAL
700 Capitol Ave.
Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.Dunn@ky.gov

BARRY L. DUNN*
Deputy Attorney General
VICTOR B. MADDOX
Assistant Deputy Attorney
General
CARMINE G. IACCARINO
Assistant Attorney General

*Counsel of Record
Counsel for Petitioner
February 19, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

The Sixth Circuit profoundly erred . . . . . . . . 2

II.

The decision below plainly split with the
Ninth Circuit . . . . . . . . . . . . . . . . . . . . . . . . . . 7

III.

Respondents’ vehicle problems are imagined
..................................... 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Day v. Apoliona,
505 F.3d 963 (9th Cir. 2007). . . . . . . . . . . . . . . 7, 8
EMW Women’s Surgical Ctr., P.S.C. v. Friedlander,
978 F.3d 418 (6th Cir. 2020). . . . . . . . . . . . . . . . 10
EMW Women’s Surgical Ctr., P.S.C. v. Friedlander,
Case 3:19-cv-178-DJH (W.D. Ky.) . . . . . . . . . . . . . . 7
Hollingsworth v. Perry,
570 U.S. 693 (2013). . . . . . . . . . . . . . . . . . . . . . . . 6
Hopkins v. Jegley,
968 F.3d 912 (8th Cir. 2020) (per curiam) . . . . . 11
Izumi Seimitsu Kogyo Kabushiki Kaisha v. U.S.
Philips Corp., 510 U.S. 27 (1993) . . . . . . . . . . . . 12
Lawrence on Behalf of Lawrence v. Chater,
516 U.S. 163 (1996) (per curiam) . . . . . . . . . . . . . 9
Maine v. Taylor,
477 U.S. 131 (1986). . . . . . . . . . . . . . . . . . . . . . . . 5
Maryland v. King,
133 S. Ct. 1 (2012). . . . . . . . . . . . . . . . . . . . . . . . . 5
United Airlines, Inc. v. McDonald,
432 U.S. 385 (1977). . . . . . . . . . . . . . . . . . . . . . 2, 3
Whole Women’s Health v. Paxton,
978 F.3d 974 (5th Cir. 2020). . . . . . . . . . . . . . . . 11
Whole Women’s Health v. Paxton,
978 F.3d 896 (5th Cir. 2020). . . . . . . . . . . . . . . . 11

iii
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ky. Rev. Stat. 15.020 . . . . . . . . . . . . . . . . . . . . . . . 1, 5
Ky. Rev. Stat. 15.090 . . . . . . . . . . . . . . . . . . . . . 1, 5, 6
RULES
Fed. R. Civ. P. 60 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
ARGUMENT
It’s hard to understand what Kentucky should have
done differently to ensure a full defense of its laws.
When Respondents challenged the constitutionality
of HB 454, the Secretary of the Cabinet for Health and
Family Services vigorously defended the law on behalf
of the Commonwealth through a five-day trial. The
Secretary continued defending on appeal, even after an
election changed Kentucky’s gubernatorial
administration. And as part of that effort, the Attorney
General’s office represented the Secretary before the
Sixth Circuit.
After the panel ruled against the Commonwealth,
the Secretary decided not to appeal further. But
Kentucky had a safeguard in place. Kentucky law
authorizes the Attorney General to “prosecute an
appeal” in “any case . . . whenever, in his judgment, the
interest of the Commonwealth demands it.” Ky. Rev.
Stat. 15.090. So the Attorney General moved to
intervene within two days and tendered a timely
petition for rehearing en banc.
The Attorney General’s request was modest: swap
one official-capacity defendant for another so the
Commonwealth can exhaust its appellate rights in
defending HB 454. All the Attorney General asked for
was the ability to finish the appeal—something that
the Kentucky legislature expressly empowered him to
do. See id.; Ky. Rev. Stat. 15.020.
The panel below nevertheless denied the Attorney
General’s motion as “untimely,” and Respondents now
downplay that decision as “routine” and “fact-specific.”

2
But what is “routine” about denying a State the
ability to have its chosen representative intervene
when a public official declines to defend a law?
Respondents cannot point to any other case in which
such a “routine” application of the law occurred. And
what is the “fact-specific” reason for holding, as the
court below did, that the Attorney General should have
had the clairvoyance to predict the Secretary would
make an about-face and abandon his years-long
defense of state law?
At bottom, Respondents make the same mistakes as
the panel. This case is not about the personal interest
of the Attorney General, nor was it about the personal
interest of the Secretary in the years before. It is about
Kentucky’s interest in defending its laws in federal
court. Kentucky law provides the Attorney General the
power to do so, and the panel’s failure to give that any
consideration or effect was an affront to the
Commonwealth’s sovereignty.
I.

The Sixth Circuit profoundly erred.

Respondents insist the decision below was correct
and insignificant. BIO at 29–31, 10–19. They are
doubly wrong.
A. Start with the errors in the decision. This Court
has had few occasions to address appellate
intervention, but what little it has said cuts against the
decision below.
The question when considering “post-judgment
intervention for the purpose of appeal” is whether, “in
view of all the circumstances the intervenor acted
promptly.” United Airlines, Inc. v. McDonald, 432 U.S.

3
385, 395–96 (1977). Intervention is appropriate—even
after final judgment—as long as the non-party moves
“as soon as it [becomes] clear . . . that [his or her]
interests . . . would no longer be protected” by the
existing parties. Id. at 394.
Even setting aside the sovereignty issues, it’s hard
to see how the Attorney General did not act promptly.
Respondents conceded below that the Secretary
“adequately represented” the Commonwealth’s interest
before the panel’s decision, as he had “vigorously
defended against the challenge to H.B. 454.” See
6th.Cir.Dkt. 58 at 22 (cleaned up). Given that, it seems
obvious that the Attorney General moved “as soon as it
[became] clear . . . that [the Commonwealth’s]
interests . . . would no longer be protected.” See
McDonald, 432 U.S. at 394.
The panel avoided this conclusion by requiring the
Attorney General to know the unknowable. See Pet. at
27. And Respondents merely double down: they argue
the Attorney General should have known his interest
was not protected before the Secretary decided to
abandon the appeal, even while “his office represented
the Secretary” in defense of the law. See BIO at 30.
That position is impossible to square with McDonald.
Respondents’ cries of prejudice are equally
misplaced. The Attorney General tendered his petition
for rehearing en banc by the ordinary deadline, and his
petition mirrored what the Secretary could have
submitted himself.
To this end, Respondents’ focus on third-party
standing is a red herring. First, it’s just wrong to say

4
the Attorney General moved to intervene “principally
to raise third-party standing.” See BIO at 30. True,
that is one issue the Attorney General raised in his
petition. But it was just that—one issue. See
6th.Cir.Dkt. 60 at 13–20. The Attorney General also
defended HB 454 on the merits, which is why he
pressed forward even after June Medical cast doubt on
the standing argument. The purpose for intervening
was (and still is) to defend HB 454.1
It’s also odd that Respondents argue the Attorney
General sought to “interject” new issues into the
litigation. BIO at 30. The Sixth Circuit decided every
issue raised in the Attorney General’s tendered en banc
petition (including standing), as even Respondents
acknowledge. BIO at 5–6.
B. Even still, this is no ordinary case of
intervention, and the panel’s decision to treat it as such
(although it erred in its analysis) is indefensible.
The Attorney General’s interest here is not
personal. Neither was the Secretary’s before him.
Rather, both officials have participated as agents of
Kentucky. That matters for two reasons.
First, the panel’s humdrum timeliness analysis
treated the Attorney General as though he represents
an interest previously unrepresented. But the Attorney
General moved to intervene on behalf of the

1

The Attorney General tendered his second petition for rehearing
(addressing the denial of intervention) after June Medical and did
not focus on standing. 6thCir.Dkt. 62-1 at 18–24. The panel did not
allow the Attorney General even to file it. App.131.

5
Commonwealth to represent the same sovereign
interest that the Secretary defended before.
Understood this way, how could the Attorney General’s
motion be untimely? Even if he sat on the sidelines, the
Commonwealth was in the game. And it is the
Commonwealth’s interest the Attorney General
represents.
Second, by ignoring the real interests at stake, the
panel blew past the State’s “legitimate interest in the
continued enforceability of its own statutes.” See Maine
v. Taylor, 477 U.S. 131, 137 (1986). That’s no small
thing. “[A]ny time a State is enjoined by a court from
effectuating statutes enacted by representatives of its
people, it suffers a form of irreparable injury.” See
Maryland v. King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J.,
in chambers). Yet Respondents treat the
Commonwealth’s interest in the continued enforcement
of its laws as an afterthought—irrelevant to the
motion.
What’s most troubling is that Kentucky has done
everything it can to prevent the kind of procedural
default the Sixth Circuit imposed here. Similar to other
states, the Kentucky Attorney General has the
statutory power to represent the Commonwealth’s
interest in court. See Ky. Rev. Stat. 15.020. The
Attorney General also can “prosecute an appeal” when
“the interest of the Commonwealth demands.” Ky. Rev.
Stat. 15.090 (emphasis added). The Kentucky
legislature, in other words, expected that a public
official might abandon the Commonwealth’s interest in
court, and it enacted a failsafe allowing the Attorney
General to step in.

6
As this Court has recognized, a State is entitled to
“designate agents to represent it in federal court.” See
Hollingsworth v. Perry, 570 U.S. 693, 710 (2013). Must
States now stack the trial-court docket with multiple
officials as defendants to prevent one from leaving the
State helpless if he or she abdicates?2
One more point: Respondents implicitly concede the
real stakes by conflating the Secretary and the
Attorney General—referring to both as “the
Commonwealth.” Compare BIO at 3 (“After the close of
the plaintiffs’ case, the Commonwealth [the Secretary]
made an oral motion . . . .”), with id. at 31 (“Petitioner
objects to the Commonwealth [the Attorney General]
being treated like every other party regarding
timeliness.”). Respondents are right to do so: the proper
way to think about the Attorney General’s motion is to
acknowledge that the real party in interest is the
Commonwealth, and the Attorney General simply
wants to substitute one official-capacity defendant for
another. See App.122 (Bush, J., dissenting).
In fact, when Respondents opposed the motion
below, they objected because the Secretary already
“adequately represented” the Commonwealth’s
interest. 6th.Cir.Dkt. 58 at 20–22. If that’s true, how
can Respondents now argue the Attorney General
should have intervened earlier?
2

This conundrum adds context to the stipulation dismissing the
Attorney General from the trial-court proceeding without
prejudice. That stipulation of dismissal—which reserved the
Attorney General’s rights to appeal, including those under Ky. Rev.
Stat. 15.090—came when another state official was already
defending the law.

7
Nor have they limited such claims to this case. One
of Respondents (the EMW clinic) also has challenged
other Kentucky laws in a separate action. See EMW
Women’s Surgical Ctr., P.S.C. v. Friedlander, Case
3:19-cv-178-DJH (W.D. Ky.). When that case had been
pending for less than a year, and discovery had not
begun, the Attorney General moved to intervene. Id. at
Dkt. 53. The clinic objected, again because the
Secretary already adequately represented the
Commonwealth’s interests. Id. at Dkt. 56 at 10. So
which is it? Is a State attorney general required to
intervene early in a case or prohibited from doing so?
Respondents’ position is not about timing. It’s about
procedurally defaulting the Commonwealth and
insulating the court below from further review. See
App.124–25 (Bush, J., dissenting). That should not be
how federal courts resolve important questions like the
constitutionality of a state law.
II.

The decision below plainly split with the
Ninth Circuit.

Respondents wave away the Sixth Circuit’s split
from the Ninth as based on factual differences. But any
differences favor the Attorney General, only
highlighting how the panel below broke from the Ninth
Circuit’s approach.
Take Day v. Apoliona, 505 F.3d 963 (9th Cir. 2007),
the case in which the Ninth Circuit allowed Hawaii to
intervene to petition for rehearing en banc.
Respondents contend that Day is different because,
unlike here, Hawaii participated as an amicus before
moving to intervene. Yet that cuts against

8
Respondents’ position. Hawaii participated as an
amicus to raise issues the parties would not. Or said
another way, Hawaii declined to intervene despite
knowing that the parties were not adequately
representing its interests. In contrast, the Attorney
General here had no reason even to file an amicus brief
because the Secretary was already representing the
Commonwealth’s interests in full (with the Attorney
General as counsel).
What’s notable, however, is that the Ninth Circuit
acknowledged the timeliness problem for Hawaii and
still granted intervention. The reason? Because the
State’s sovereign interests were too important to
overlook: “[E]ven though Hawaii could have and should
have intervened earlier, we will not foreclose further
consideration of an important issue” that will have
“long term impact on the State of Hawaii.” Id. at 966.
The Ninth Circuit gave determinative weight to the
State’s sovereign interests and refused to procedurally
bar Hawaii from exhausting the appellate process even
though it did not diligently protect its rights.
The Sixth Circuit, by contrast, paid no mind to the
Commonwealth’s sovereign interests. And in fact, the
panel imposed a higher burden on the Attorney
General than even ordinary litigants face—faulting
him for not predicting the Secretary would abandon the
litigation. That decision cannot be reconciled with the
Ninth Circuit’s approach.

9
III.

Respondents’
imagined.

vehicle

problems

are

There are no vehicle problems with this case.
A. Respondents argue it is inappropriate for the
Sixth Circuit to reconsider this case in light of June
Medical because the Attorney General should first go
to the district court for relief under Fed. R. Civ. P. 60.
BIO at 21–23. If adopted more broadly, that argument
would all but nullify this Court’s well-established GVR
practice. See Lawrence on Behalf of Lawrence v. Chater,
516 U.S. 163, 166–67 (1996) (per curiam). The Court
GVR’s cases “in light of a wide range of developments,
including [its] own past decisions.” Id. at 166. And in
fact, this Court GVR’d two cases after June Medical,
both of which the panel below relied on when it issued
its merits decision. See Pet. at 17. Accepting
Respondents’ argument would mean the Court should
not have granted these two GVR’s based on June
Medical.
Respondents’ position might make sense if June
Medical came after the Commonwealth’s appellate
rights expired. But it makes no sense here, when the
intervening change in law came while this matter is
still pending. The Attorney General agrees, of course,
that the lower courts should re-evaluate this case in
light of June Medical. The most expeditious way to do
so is with a GVR.
B. Respondents’ disagreement over whether June
Medical changes the outcome of this case only
illustrates why the Attorney General should be
permitted to intervene and seek further relief below.

10
No one can seriously question that the Chief Justice’s
concurrence in June Medical matters—in fact, the
Sixth Circuit concluded just as much only a few months
later. EMW Women’s Surgical Ctr., P.S.C. v.
Friedlander, 978 F.3d 418, 433 (6th Cir. 2020). The fact
that Respondents disagree over how June Medical
applies to this case is exactly why this matter should
not end by default. This Court should allow the
Commonwealth to fully argue the issues below.
This conclusion does not change because, as
Respondents contend, the Sixth Circuit included an
alternative holding. That footnote—which contained no
analysis—addressed a narrow argument the Secretary
made before the benefit of June Medical. See App.17
n.3. It did not hold, as Respondents claim, that HB 454
would fail even under the Chief Justice’s
standard—how could it? The Court had not released
June Medical, and the remainder of the Sixth Circuit’s
opinion is infused with the standards that the Chief
Justice rejected.
One footnote cannot undo the irreconcilability of the
panel’s decision with June Medical. The court below
balanced burdens against benefits, and the Chief
Justice rejected such a scale. The court below discarded
the Gonzales holding about deference to the States in
areas of medical uncertainty, and the Chief Justice
affirmed it. The court below denied that abortion
providers must make good-faith efforts to comply with
laws before challenging them, and the Chief Justice
reiterated that requirement. At every stage of the
analysis, the court below adopted a legal standard that
is irreconcilable with June Medical. Rather than, as

11
Respondents invite, summarily concluding that none of
these legal errors were consequential, the Court should
let the ordinary process play out with full briefing
below.
C. Respondents also contend that “every court to
consider a law similar to Kentucky’s has agreed that it
unduly burdens the right to elect abortion before
viability.” BIO at 25. Yet Respondents only cite cases
decided before June Medical. Id.
There’s a reason for that: the landscape has
changed dramatically since. The Fifth Circuit, for
example, recently granted rehearing en banc in a
challenge to an analogous Texas law. See Whole
Women’s Health v. Paxton, 978 F.3d 974, 975 (5th Cir.
2020) (Mem). At the panel stage, the Fifth Circuit
found the law unconstitutional over a dissent by Judge
Willett. A crucial disagreement between the majority
and dissent was how to apply June Medical. Compare
Whole Women’s Health v. Paxton, 978 F.3d 896, 904
(5th Cir. 2020) (panel op.), with id. at 914–15 (Willett,
J., dissenting). Yet the Sixth Circuit prevented
Kentucky from even asking for rehearing en banc.
A challenge to a similar Arkansas law tells an even
more compelling story. A district court enjoined the law
in 2017. But on appeal three years later, the Eighth
Circuit vacated that injunction. Hopkins v. Jegley, 968
F.3d 912 (8th Cir. 2020) (per curiam). It held that the
Chief Justice’s concurrence in June Medical controlled
and remanded the matter for further consideration. Id.
at 914–16. The Eighth Circuit recognized two problems
with the district court’s pre-June Medical decision:
First, it applied the “cost-benefit” analysis from

12
Hellerstedt that the Chief Justice’s concurrence
repudiated. Id. at 915. And second, the district court
declined to give the state “wide discretion” to legislate
“in areas of medical uncertainty.” Id. at 916. Both
errors predominate the Sixth Circuit’s merits decision
as well. Pet. at 17–21.
So Respondents leave out a lot when they claim
June Medical has no bearing here because “every court
to consider a law similar to Kentucky’s has agreed that
it unduly burdens the right to elect abortion.” BIO at
25. After June Medical, other states continue to defend
dismemberment laws under a new legal landscape,
while Kentucky must live with the Secretary’s
surrender.
D. On whether this case is a good vehicle,
Respondents inadvertently highlight why the Court
should grant certiorari by pointing to Izumi Seimitsu
Kogyo Kabushiki Kaisha v. U.S. Philips Corp., 510 U.S.
27 (1993). As here, the Court of Appeals in Izumi
denied the petitioner’s motion to intervene. Id. at 29.
But unlike here, the petitioner did not seek relief from
that decision. Instead, the petitioner sought certiorari
on the merits without regard for the fact that the
petitioner was not a party under 28 U.S.C. § 1254(1).
To review the merits, the Court needed to expand the
question presented to include the intervention issue.
But it declined to do so because it “strongly
disapprove[s] the practice of smuggling additional
questions into a case after we grant certiorari.” Id. at
34 (cleaned up).
Still, the Court explained, “[o]ne who has been
denied the right to intervene in a case in a court of

13
appeals may petition for certiorari to review that
ruling.” Id. at 30. That’s what happened here. Given
the sovereign interests at stake, it’s hard to imagine a
better vehicle for addressing appellate intervention.
CONCLUSION
The Court should grant the petition, allow the
Attorney General to intervene, and vacate the
judgment below and remand for further consideration
in light of June Medical.
Respectfully submitted,
OFFICE OF THE
KENTUCKY ATTORNEY
GENERAL
700 Capitol Ave.
Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.Dunn@ky.gov
*Counsel of Record

BARRY L. DUNN*
Deputy Attorney General
VICTOR B. MADDOX
Assistant Deputy Attorney
General
CARMINE G. IACCARINO
Assistant Attorney General

